<html>
<title> - OIL AND GAS INDUSTRY IN THE GULF OF MEXICO</title>
<body><pre>[House Hearing, 103 Congress]
[From the U.S. Government Publishing Office]



 
                                     OIL AND GAS INDUSTRY IN THE
                                           GULF OF MEXICO                                    
  ______________________________________________________________________________________________   
  
                                     JOINT OVERSIGHT HEARING
                                                
                                           BEFORE THE
                                              
                                          SUBCOMMITTEE ON
                                            
                                    ENERGY AND MINERAL RESOURCES                                     
                                     
                                              AND THE   
                                              
                                          SUBCOMMITTEE ON            
                                           
                                     OVERSIGHT AND INVESTIGATIONS      
                                              
                                             OF THE
                                               
                                           COMMITTEE ON
                                            
                                        NATURAL RESOURCES
                                          
                                     HOUSE OF REPRESENTATIVES
                                      
                                   ONE HUNDRED THIRD CONGRESS
                                     
                                         SECOND SESSION
                                             
                                              ON   
                                              
                        ECONOMIC HEALTH OF THE DOMESTIC OFFSHORE OIL AND GAS
                                            INDUSTRY                     
                                         _______________
                              
                                 HEARING HELD IN WASHINGTON, DC
                                         JUNE 23, 1994
                                     __________________     
                                 
                                      Serial No. 103-98
                                     _____________________                                 
                                     
                               
                                     
                Printed for the use of the Committee on Natural Resources
                
                
                
                
                

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               U.S. GOVERNMENT PRINTING OFFICE
                               
  84-375                               WASHINGTON : 1994
  
  
                                                     
                                 
                                 
                                 
                                 

 [TEXT NOT AVAILABLE]



</pre></body></html>
